U.S. Department of Justice
Office of the Inspector General


       Improving the Office of Community Oriented Policing 

        Services’ Grant Awarding, Monitoring, and Program 

                       Evaluation Processes 


                     Fiscal Years 2005 Through 2008




                              June 2009 

    Improving the Office of Community Oriented Policing 

     Services’ Grant Awarding, Monitoring, and Program 

                    Evaluation Processes 


                      Fiscal Years 2005 Through 2008

Introduction

       The Department of Justice (DOJ) Office of Community Oriented
Policing Services (COPS) is responsible for advancing community policing as
a strategy to improve public safety. Over its 15-year history, COPS has
awarded $11.4 billion in grants to state, local, tribal, and other organizations
to hire police officers, acquire law enforcement-related communication
technology, produce training materials for law enforcement agencies, and
fund other related initiatives.

       In recent years, however, COPS grant funding had been reduced. For
example, in 1998, its peak year of funding prior to 2009, COPS awarded
$1.6 billion in grants, while in 2006, its leanest year for grant funding, about
$220 million was awarded in grants. In 2008, COPS awarded about $300
million in grants.

        In the FY 2009 appropriation of about $285 million for COPS, about
$227 million or nearly 80 percent of the funds are congressional earmarks to
grant recipients.1 In addition, the focus of COPS grants in recent years
shifted from increasing community policing personnel to meeting law
enforcement agencies’ equipment needs and funding methamphetamine
initiatives.

      However, the declining trend in COPS funding and the shift away from
hiring grants was recently reversed by the American Recovery and
Reinvestment Act of 2009 (Recovery Act). In the Recovery Act, which was
signed into law on February 17, 2009, COPS received an additional $1 billion
in funds to help address the personnel needs of state, local, and tribal law
enforcement through the hiring, rehiring, and retaining of career law
enforcement officers. To implement its share of the Recovery Act, COPS
created the COPS Hiring Recovery Program (CHRP) as a competitive grant
program intended to provide funding to law enforcement agencies to create

      1
         The Office of Management and Budget defines earmarks as funds provided by the
Congress for projects or programs where the congressional direction (in bill or report
language) specifies the location or recipient, thereby circumventing a merit-based or
competitive allocation process.



                                         - 1 -

and preserve jobs and to increase their community policing capacity and
crime-prevention efforts. The nature and amount of the Recovery Act
funding represents a significant change from COPS’ recent grant program
history, both in the amount of funding and in the program to be
implemented.

      In the fall of 2008, prior to the passage of the Recovery Act, the DOJ
Office of the Inspector General (OIG) had initiated a performance audit of
the Office of Community Oriented Policing Services (COPS). That audit was
designed to examine COPS’ overall grant-making processes, including
detailed testing of COPS awards and monitoring efforts. However, in light of
the significant amount of COPS’ Recovery Act funds and the shift in focus on
the COPS programs that will be funded, the OIG decided that, instead of
completing a full audit of the COPS program as previously designed, we
would issue this technical advice report to help COPS with its handling of
grant funds from the Recovery Act, and we would initiate new audits to
assess the refocused COPS program.

      Therefore, in this report, we describe, based on our extensive audit
experience and initial work started in 2008, how the COPS grant program
has operated to date and our observations concerning improvements and
best practices for COPS to consider as it administers the new CHRP grants
under the Recovery Act. In addition, we have begun a series of audits
specific to COPS’ administration of this new program it has created to award
Recovery Act funds, and we will be issuing reports on that program in the
future.

Background

      As noted above, the Recovery Act provides funding for a new officer
hiring program that reverses the recent trend in the amount and type of
COPS grant programs. In total, the $1 billion in Recovery Act funds COPS
received for the CHRP is approximately three times larger than the average
annual appropriations to COPS for grants over the past 5 years.

      As Figure 1 depicts, COPS grant awards began to decline in FY 2000,
and the decline steadily continued through FY 2008. However, in FY 2009
the Recovery Act and approximately $285 million from the FY 2009 annual
appropriation changed that trend.




                                    - 2 -

Figure 1: COPS Budget History and Grants Awarded2 
                                              COPS Budget History and Grants Awarded


                       $1,800
                       $1,600
                       $1,400
                       $1,200
   (in millions)




                       $1,000
                        $800
                        $600
                        $400
                        $200
                          $-
                                1995      2002      2003        2004       2005     2006         2007   2008     2009*
                                                                         Fiscal Year
                                                                         *anticipated
                                       Administration Request            Enacted Appropriation          Grants Awarded

Source: OIG analysis of data obtained from COPS and Congressional Research Service

     Figure 1 also shows the sharp decline in funding proposed in the
Administration’s budget requests beginning in FY 2003. Although the
appropriations also enacted by Congress declined during this period, the
awards were consistently higher than what the Administration’s budgets
proposed.

      In addition to reversing the general trend in declining financial support
for COPS, the Recovery Act has again made hiring the central focus of COPS’
grant programs. While officer hiring and redeployment grant programs
comprised the majority of COPS funding prior to FY 2001, the
Administration’s budget requests between FYs 2003 and 2009 did not seek
any funding for hiring grant programs. Instead, funding requests for COPS
during these years focused on grants for tribal law enforcement assistance,
methamphetamine programs, technology projects, and technical assistance
and training.3



                   2
                       For presentation purposes, values for the FYs 1995-2002 are averaged.
                   3
                       See Appendix 1 for an overview of the various COPS grant programs.


                                                                - 3 -

      Figure 2 depicts the historical trend in COPS programmatic funding, as
well as the change in program priorities resulting from the Recovery Act in
FY 2009. The amount for hiring grants in FY 2009 represents funds
appropriated through the Recovery Act, while the Methamphetamine and
Technology grants are funded by the FY 2009 annual appropriation.

Figure 2: COPS Programs as a Percentage of Total Dollars Awarded
                                  100%


                                  90%


                                  80%
  Percentage of Dollars Awarded




                                  70%
                                                                                                                       Hiring Grants
                                  60%
                                                                                                                       Tech and Meth
                                  50%
                                                                                                                       Grants


                                  40%


                                  30%


                                  20%


                                  10%


                                   0%
                                         1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009*
                                                                        Fiscal Year
                                                                      (*anticipated)


Source: OIG analysis of data obtained from COPS

      At the same time that its program funding was decreasing, COPS’ staff
to administer the program declined from 214 in 1999, to 157 in 2003, to 109
in October 2008. The reduction in staff occurred gradually over this period
through attrition and hiring freezes.

      From 2001 through 2008, approximately 50 percent of COPS’ grant
funding was earmarked by Congress for the Methamphetamine and
Technology programs. While earmark recipients are required to submit an
application for approval by COPS to receive funding, COPS had little
authority over who received the grant funds without the merit-based or
competitive criteria. The exception to this trend was the moratorium on
earmarks in FY 2007.




                                                                                     - 4 -

OIG Observations

      The following observations in this report are intended to provide COPS
with technical advice regarding COPS’ grant awarding, monitoring, and
program evaluation processes. This advice is based on the OIG’s
observations of practices used by COPS during FYs 2005 through 2008, and
the OIG did not conduct audit testing on the information contained in this
report.4 These observations are also based on the OIG’s past audit work of
the COPS program, which includes 8 audit reports related to COPS internal
operations and more than 400 audits of recipients of COPS grants.

       It is important to note that while COPS is responsible for awarding its
grants, COPS shares responsibility for monitoring grantees with the Office of
the Chief Financial Officer (OCFO) within the Office of Justice Programs.5
COPS is responsible for performing programmatic reviews of grant recipients
and ensuring that the grantees meet performance expectations. The OCFO
is responsible for performing financial reviews of COPS grantees. In addition
to the programmatic and financial reviews performed by COPS and the
OCFO, the Office of Audit, Assessment, and Management (OAAM) within the
Office of Justice Programs provides oversight for how both COPS and OCFO
reviews are performed.6

      Our observations below first address steps we believe COPS should
consider taking to improve its grant awarding process, and then steps COPS
should consider taking to improve its grant monitoring process.

Grant Awarding Process

      It appears from our prior reviews that the non-earmarked
discretionary grant awards made by COPS during FYs 2006-2008 were made
using merit-based or competitive criteria. Furthermore, COPS initiated a

       4
          This report is a non-audit service as defined by generally accepted government
auditing standard 3.26. The report contains technical advice that is not intended to be used
as the primary basis for management decisions. As a result, this report and the work
performed are not intended to comply with generally accepted government auditing
standards.
       5
        The Office of the Chief Financial Officer (OCFO), formerly the Office of the
Comptroller, provides fiscal policy guidance and provides accounting, budget, financial and
grants management, and claims collection services for COPS and other OJP components.
       6
         Because our review was focused on COPS grant management process, we do not
provide any assessment in this report of the OCFO’s grant monitoring efforts or OAAM’s
oversight role. However, the OCFO’s and OAAM’s efforts will be included as part of an
ongoing audit of OJP’s award and oversight of its Recovery Act funds.


                                           - 5 -

business process review during FY 2006 to improve and standardize
operations that helped it avoid award decisions that were not competitive or
merit-based. As part of this business process review, COPS created process
maps to define all the required steps that COPS personnel should take in
awarding grants.

     However, we identified several additional steps, described below, that
we believe COPS should consider taking to improve its grant awarding
process.

   1. Using Contracts in Place of Grants

       In addition to the grants COPS awarded to state, local, and tribal
governments for hiring police officers, acquiring equipment, and other
purposes, COPS awarded grants and cooperative agreements to various
organizations for technical assistance and training activities, such as
conferences, publications, and other services for specific grantees and for
the wider law enforcement community. The amount of funding for these
activities was generally about 3 percent of all COPS grant funding in any
year we reviewed.

       However, we believe that grants and cooperative agreements are not
always the most effective mechanism to fund every program carried out by
COPS. Specifically, there are instances where a contract rather than a grant
or cooperative agreement can provide an organization with much more
control over the costs associated with conferences or training seminars.
Contracts can impose stricter terms on service providers and can focus
emphasis on providing the service or deliverable. During our review, we
noted that COPS relied solely on grants and cooperative agreements for all
of its programs, when in some instances contracts could have been more
appropriate. To ensure the use of contracts where appropriate, we believe
that COPS should consider developing guidance to help grant administrators
identify the types of activities that may be provided more efficiently through
contracts rather than through grants or cooperative agreements.

   2. Identifying and Training High-Risk Grantees

      From our prior experience auditing grantees throughout the
Department, we found that many grantees who fail to comply with
administrative requirements of grants did so either because they
misinterpreted grant requirements or were never aware of them. This
occurred even when grantees signed all the required grant award
documents, including grantee assurances and certification statements.



                                     - 6 -

      We recognize that COPS includes detailed terms and conditions in its
grant applications, grant user manuals, and on the COPS website, as well as
operates a Response Center that provides grantees with important grant-
related information.7 We believe these steps are useful and necessary.

       However, in our view, grantee compliance may be improved by
collecting more information specific to how funds will be managed from
grantees and by requiring high-risk grantees to demonstrate that they
understand key grant-related responsibilities. For example, similar to the
monitoring assessment criteria COPS developed for its Grant Assessment
Tool (discussed later in this report), we believe COPS could benefit from
developing a methodology for identifying, before grant funding is made
available, those grantees who pose the highest risk for non-compliance.
This set of criteria may include grantee attributes such as: (1) lack of
experience with COPS or DOJ grants, (2) smaller grantees that may have
limited accounting or program management resources, (3) grantees with a
history of high turn-over rates for its staff responsible for grant
administration duties, or (4) law enforcement agencies in which police
officers, rather than dedicated financial staff, are responsible for preparing
financial status reports and making requests for grant funding (drawdowns).

       Moreover, if COPS collected more information on a grantee’s
accounting system before making its grants, it would be better able to
identify high-risk grantees. For example, the Office of Justice Programs
(OJP) – a separate Department component which administers other grants
awarded by the Department – requires its new grantees that are non-profit
organizations and their independent Certified Public Accountant (CPA) firms
to provide and certify certain information concerning the grantee’s
capabilities for accounting and financial systems, such as separately
identifying transactions related to individual grants and budget controls.
COPS should consider collecting this information from all of its grantees.

      Once a high-risk grantee is identified, COPS should also consider
requiring mandatory training in grant administration for that grantee, as
discussed in the Grantee Monitoring section of this report.




       7
          The COPS Office Response Center provides information on programs, grants, and
application assistance, and also assists COPS grantees with financial questions and grant-
related inquiries about COPS.


                                           - 7 -

   3. Vetting Grant Applicants

      We believe that COPS could improve its ability to identify high risk
grantees by establishing a more effective vetting process. The current
vetting process at COPS consists of circulating lists of potential grantees to
other DOJ offices for their feedback in identifying any reasons why the
potential grantees should not be provided funding.

       We reviewed the records related to the vetting of recent lists of
potential grantees and believe the vetting process could be strengthened in
two important aspects. First, COPS vetting lists are routinely circulated
through individual U.S. Attorney’s Offices and four other DOJ offices: the
Civil Rights Division, the Criminal Division, OJP’s Office of Civil Rights, and
OIG’s Investigations Division. However, the OJP’s grant-awarding and
financial monitoring offices are not asked to review or provide any
information they have on potential COPS grantees. The vetting lists are also
not sent to the Office on Violence Against Women (OVW), another grant-
awarding component within the Department. Because recipients of COPS
grants often receive grants from OJP or OVW, we believe COPS is not
receiving potentially important information regarding high-risk grantees from
these two components.

       Second, we believe that COPS does not provide sufficient guidance
regarding what the DOJ components should do when vetting grantees. Of
the four components to whom names of potential grantees are circulated,
only the Civil Rights Division has a formal memorandum of understanding
(MOU) with COPS detailing how issues regarding vetting will be handled.
The other offices do not have MOUs with COPS and are only generally asked
to advise COPS if awarding a grant to any of the organizations on the vetting
list would be “inappropriate or inadvisable.” We believe COPS and the
vetting offices would both benefit from a more detailed understanding of the
methods and sources of information that should be used when responding to
these vetting requests.

Grantee Monitoring

      Grantee monitoring for COPS grants is administered by two different
DOJ offices, with program performance monitoring conducted by COPS staff
and financial monitoring performed by OJP’s Office of the Chief Financial
Officer. Because our review focused on COPS, our comments are generally
limited to the program monitoring of COPS grantees.

     The COPS Grant Monitoring Division is responsible for conducting
program performance reviews of grantees through site visits to grantee


                                     - 8 -

offices and through desk reviews where grantees provide documentation at
the request of COPS staff. However, as of February 2009 there were only
four grant monitors on staff within the COPS Grant Monitoring Division. We
are concerned with COPS’ ability to provide effective grant management
over thousands of grants, with that limited number of staff. COPS should
consider reexamining the staffing level of the Grant Monitoring Division
given the significant increase in grant funding to be distributed under the
Recovery Act. This type of staffing level examination should be performed
on an ongoing basis.

     Even with limited staff resources available, we believe COPS could
improve the efficacy of its grant monitoring through the practices described
below.

   4. Enhancing Training Programs for Grantees

      COPS has attempted to increase the effectiveness of its grantee
monitoring resources by selecting award recipients for review using the
Grant Assessment Tool, a risk-based methodology COPS developed and
began using in FY 2007. While we did not review in detail the Grant
Assessment Tool and the monitoring plans it created, we interviewed staff at
OJP’s Office of Audit, Assessment, and Management (OAAM) who approved
the tool and who are responsible for approving the resulting monitoring
plans developed by COPS each year.8 According to these officials, COPS is
using the tool to create and follow specific monitoring plans for high-risk
grantees.

      Along with its adoption of a risk-based methodology for using its
monitoring resources, COPS has reduced the number of active grants it is
responsible for managing by closing out many older grants.9 The number of
active grants has been significantly reduced, based upon the closing out of
older grants as well as the declining budgets that has produced fewer grant
awards. Between FYs 2005 and FY 2008, the number of active COPS grants
declined from 19,200 to about 4,600 – a reduction of about 76 percent.



      8
          OAAM oversees grantee monitoring completed by COPS, as well as by OJP and
OVW. Elements of the oversight provided by OAAM include approving COPS’ annual grantee
monitoring plan and evaluating site visit reports completed by COPS’ Grant Monitoring
Division.
      9
         COPS was included in the OIG’s 2006 audit report – “The Department of Justice’s
Grant Closeout Process” 07-05 -- in which we indentified problems across the Department in
three general areas: (1) timeliness of grant closeout, (2) drawdowns on expired grants,
and (3) unused grant funds on expired grants.


                                          - 9 -

With the new funding provided by the Recovery Act, however, the number of
grantees will increase substantially.

       COPS has acknowledged the challenge of effectively monitoring
thousands of new grants collectively worth billions of dollars with a limited
staff. To help compensate for this limitation, COPS monitors select grantees
for review by conducting site visits and other less intensive examinations
called office-based reviews that do not involve traveling to a grantee’s
location. However, COPS’ four grantee monitors are able to complete only a
relatively small number of site visits and office-based reviews annually.
During FY 2008, COPS’ Grant Monitoring Section staff completed 28 site
visits and 16 office based reviews. In total, these 44 reviews involved 85
grants or 1.8 percent of the total 4,600 grants outstanding at the start of FY
2008.

       While the adoption of risk-based monitoring plans and increased
oversight by OAAM have been positive developments in the area of COPS
grantee monitoring, we believe that COPS needs to do more to ensure
grantees’ compliance with grant terms and conditions. In the OIG’s past
audits of COPS grant recipients, we frequently found that problems exist
with grantees even when all the grant documentation and required report
submissions suggest otherwise.10 Non-compliance issues have often been
caused by grantees misinterpreting or lacking an understanding of grant
criteria, despite having signed all the award documents and certifications.

       Prior to FY 2003, COPS relied on OJP to provide grant administration
training for all of its grantees. However, since then COPS has not
consistently conducted this type of training for its grantees. While COPS has
developed some training for grantees in various grant programs, we do not
believe those ad hoc training sessions are as effective as mandatory training
conducted on a recurring basis.

      We believe that COPS should consider developing recurring and
mandatory training programs for all grantees, but especially those that may
be at higher risk for compliance issues. Using Internet-based methods to
implement that training could be one cost effective way for COPS to better
address its grantee monitoring challenges.




       10
         COPS grantees are typically required to submit periodic financial status reports
and progress reports.


                                          - 10 -
   5. Allowing Remote Access to Grant Documentation

       Most of the data COPS maintains regarding its grantees is maintained
in a COPS database called the COPS Management System. Unlike the OJP’s
Grants Management System, which is used for all non-COPS Department of
Justice grantees, the COPS Management System is only available to COPS
staff. The COPS Management System, as it currently exists, is an older
stand-alone system that is not accessible from the Internet. This restriction
limits the amount of available information that can be shared with OJP and
OVW, the two other DOJ grant-making components.

       OJP’s OAAM and Office of the Chief Financial Officer (OCFO) also have
responsibilities related to COPS grantee monitoring and often require
information from the COPS Management System. Although the COPS
Management System is not accessible from the Internet, it is possible to
remotely access the system using other methods. Given the duties of OAAM
and the OCFO relative to COPS grantee monitoring, we believe COPS should
consider making it possible for selected staff members from each of these
offices to remotely access its system to more easily obtain grantee
information. We believe that this type of sharing of information may also
improve the vetting process used by COPS.

Grant Program Performance

      Prior to FY 2006, COPS performance measures were focused on the
overall impacts of its programs, such as reducing crime, reducing fear of
crime, and increasing trust in police. However, the Office of Management
and Budget (OMB) concluded that these outcomes were difficult to measure
accurately and on an annual basis. In FY 2006, OMB revised COPS’ annual
and long-term outcome measures to focus on increasing the capacity of law
enforcement agencies to implement community policing strategies. While
COPS has implemented those new performance measures, we remain
concerned with COPS’ measures for other grant programs not currently
being evaluated.

   6. Measuring the Performance of COPS Programs

      Currently, there are nine OMB-approved performance measures being
used by COPS. These measures focus on COPS’ ability to provide law
enforcement agencies with training and technical assistance through
conferences, publications, and best practices in an effort to expand the
adoption of community policing strategies nationwide.




                                    - 11 -
      While all of these measures address increasing the capacity of law
enforcement agencies to implement community policing strategies, only two
of these measures directly evaluate the impact of COPS’ major grant
programs. For example, in FY 2008 seven of the measures directly related
to $4 million in COPS funding, while the remaining two measured the impact
of about $316 million in grant awards.

       Additionally, because COPS only uses measures related to the
enhancement of community policing capacity for its grant programs, COPS
was not able to report other program achievements for these programs. For
example, COPS funded hundreds of projects under its Technology and
Methamphetamine Grant programs, but did not aggregate the
accomplishments of these projects in any way to gain insight into how
effectively or efficiently the grants were being used.

       Although COPS adhered to OMB’s guidance by focusing on the capacity
performance measures, we believe that COPS would benefit by using
additional performance measures that track the performance of its other
grant programs. Specifically, we believe COPS would benefit from tracking,
where possible, the outputs of the grants made for its various programs,
such as its hiring, Methamphetamine, and Technology programs, and also
gathering the data necessary for establishing benchmarks that represent a
level of performance expectation among grant recipients and within grant
funded programs. With significant funding from the Recovery Act, as well as
the changes in COPS’ program focus returning to law enforcement hiring
grants, measuring the performance of COPS’ programs is essential for
identifying the most successful programs and those programs that need
improvement.

Conclusion

      As noted in this report, in recent years, COPS grant funding had been
reduced and the focus of the COPS program shifted from increasing law
enforcement personnel to meeting law enforcement agency equipment
needs and funding methamphetamine initiatives. Last fall, we began our
audit of the COPS program in that context. However, the declining trend in
COPS funds and the shift away from personnel needs was recently reversed
by the Recovery Act. In addition, the Recovery Act emphasizes distributing
the funds in an expedited manner and effectively overseeing and reporting
on the use of the funds.

     Because of the significant amount of new funds awarded under the
Recovery Act and the shift in focus of those funds from equipment and
methamphetamine initiatives to personnel, we decided not to complete our


                                   - 12 -
original audit plan on the prior COPS grants. Instead, we are issuing this
technical advice report to provide timely feedback on our observations
concerning how COPS can improve its grant administration practices as it
prepares to administer the Recovery Act funds. At the same time, we are
initiating a series of audits specific to COPS’ administration of its Recovery
Act funds, and we will be issuing those reports in the future.

     In sum, based on our observations of the COPS program, we believe
COPS would benefit from making adjustments to its processes for grant
awarding, grantee monitoring, and tracking program performance.11

      First, we noted that COPS relied on grants and cooperative
agreements for all of its programs, when in some instances contracts could
have been more appropriate. We believe COPS should consider developing
guidance to help grant administrators identify the activities that should be
provided through contracts rather than through grants or cooperative
agreements.

       In addition, we believe that grantee compliance could be improved by
collecting more information from grantees and through requiring high-risk
grantees to demonstrate that they understand key grant-related
responsibilities. We also observed that COPS could improve upon its ability
to identify high-risk grantees by increasing the number of and providing
more guidance to the components that participate in the grantee vetting
process.

      We noted that while COPS has limited staff resources available to
monitor its grantees, COPS could improve its grant monitoring efforts by
developing recurring and mandatory training programs for all grantees,
especially those that may be at higher risk for compliance issues, and by
using Internet-based methods to implement that training.

      COPS also could improve grantee monitoring by increasing its
information sharing with OJP and OVW, the other DOJ grant administering
components.

     We also believe that COPS grant program performance could be
improved by tracking outputs related to the individual grant programs, and


       11
           Our observations are based on our knowledge of COPS, including its funding and
program history, our extensive prior audit work, including audits of COPS grantees, other
external reviews, and recent interviews with both COPS and other DOJ staff. As discussed
earlier, we have not completed testing of the information in this report and the technical
advice contained herein should not be interpreted as audit recommendations.


                                          - 13 -
by providing grant recipients with assistance and guidance specific to the
individual grant programs.




                                    - 14 -
                                                                APPENDIX I 



                OVERVIEW OF COPS GRANT PROGRAMS

      At its inception, COPS’ main focus for its grant programs related to the
hiring, redeployment, or overtime for law enforcement personnel engaged in
community policing efforts. In total between FYs 1995 and 2005, COPS
awarded grants of more than $7.6 billion, including the Universal Hiring
program; Accelerated Hiring, Education, and Deployment program; Funding
Accelerated for Smaller Towns program; Homeland Security Overtime
program; and COPS in Schools. These programs were greatly reduced
beginning in 2003, and no grant funds were used for these purposes at all in
FYs 2006 and 2007. In FY 2008 COPS awarded $20 million for hiring
programs.

       Since 1998, COPS has also awarded over $1.7 billion in grants for
technology-related programs such as the Law Enforcement Technology and
the Interoperable Communications Technology programs. These programs
were intended to focus on the continued development of technologies and
automated systems that help tribal, state, and local law enforcement
agencies prevent, respond to, and investigate crime. These programs
provided funding to state agencies to purchase technologies to advance
communications interoperability, information sharing, crime analysis,
intelligence gathering, and crime prevention in their communities

       Through its Methamphetamine Initiative, COPS has awarded over $578
million in grants to combat the production, distribution, and use of this
illegal drug. Grant funds provided to state and local law enforcement
agencies were intended to be used for training and equipment, and to
reimburse the Drug Enforcement Administration (DEA) for the proper
removal and disposal of hazardous materials from clandestine
methamphetamine drug laboratories.

       Since 1999, COPS also operated a grant program open to all federally
recognized tribes with established police departments, the Tribal Resources
Grant program. The program, intended to enhance tribal law enforcement
infrastructure and community policing efforts, has awarded
approximately $276 million to grantees between from FY 1999 to 2008.
Grant funding was intended to be used for a variety of options, including
officer background investigations, law enforcement training, uniforms, basic
issue equipment, department-wide technology, and vehicles for officers.

      In addition to these large programs, COPS has also managed several
smaller grant programs of limited duration through which it has awarded
more than $780 million over the past 14 years, with the majority of this
funding awarded prior to FY 2000. These grant programs addressed issues


                                    - 15 -
such as school safety, the Police as Problem-Solving Partnerships, Justice-
Based After School and Value-Based Initiatives programs, and programs
focused on child sexual predators, domestic violence, and police recruitment.

       Since its inception, COPS has also provided technical assistance and
training programs and has spent over $300 million creating and issuing
publications and using other types of outreach to advance community
policing at all levels of law enforcement, from line officers to law
enforcement executives.

      The chart on the following page shows the grant program funding for
various COPS programs.




                                    - 16 -
                                        COPS Grant Program Funding by Fiscal Year

                                                                   (in millions)



                                                                                                                     1995 to
COPS PROGRAMS       2008       2007         2006         2005      2004      2003      2002      2001      2000       1999           Total
Hiring Related      $     20       $    -       $    -   $    10   $   114   $   199   $   385   $   408   $   481   $   6,062   $     7,679
Technology
Related              $ 205     $   166      $   138      $   235   $   241   $   263   $   154   $   147   $   100   $    118    $     1,767
Methamphetamine
Initiative           $    61   $       70   $       63   $    52   $    53   $    57   $    70   $    48   $    35   $     69    $      578

Tribal Assistance   $     15   $       16   $       15   $    20   $    25   $    35   $    35   $    40   $    40   $     35    $      276
Technical
Assistance and
Training             $     4   $       10   $        4   $    15   $     5   $    21   $    21   $    21   $    17   $    204    $      322

Miscellaneous*       $    16       $    -       $    -   $    11   $    14   $    32   $    40   $    32   $    15   $    627    $      787
Total Grants        $    321   $   262      $   220      $   343   $   452   $   607   $   705   $   696   $   688   $   7,115   $ 11,409

Source: Community Oriented Policing Services

* The amount of COPS grant program funding categorized as miscellaneous includes the following COPS programs: Innovative
Programs, Safe Schools, Small Communities, Police Integrity, Police Corps, Domestic Violence Prevention, Child Sex Predator
Elimination, DC Offender Services, and Police Recruitment.




                                                                        - 17 -
                                                                                                  Appendix II 




        Community Oriented Policing Services Response




'I
 J
 I

                                                  U.S. Department of Justice
                                                  O(fice o(Communill1 Oriel/led PO/iciIl P Services (COPS)

I
                                            MEMORANDUM

     VIA ELECTRONIC lind u.s. MAIL

     To :        Raymond 1. Beaudet
                 Assistant Inspector General for Audit
                 Oftice ofthe Inspectora~cncrn

     From:       Timothy J. Quinn   c:--, .
                 Acting T)i rector
                 Office of Community Oriented Policing Services (COPS)

     Date:       June 10,2009

     Subject:    Technical Advice Report rc: "lm.proving the Office of Community Oriented Policing
                 ~crvices' Urant Awarding, Monitoring. and Program Evaluation Pro ces."cs"


     This memorandum is in response 10 the Of.fi~ of the Inspector G~cral's (010) above­
     referenced te<.mlle.1 .dvice report dated May 2009. The COPS Office thanks the OIG for the
.f
     opportunity to respond to the auditors' observations and comments.

     The COPS Office has made great advances in recent years in the areas of pIOgrdIIl objectives /
     perfonmmce measures development., grant solicitation outreach and assistance, application
     receipt. grant monitoring (in coordination with the Office of Justice Programs (OJP) Office of
     Audit, Assessment, and Management). and grant fraud prevention aud awareness. In met, many
     of these impllwcl1ll:!nl'i we re mad e iu din:d r~sponse to concerns and recomrnemlations raised in
     previous audils conducted by the OTG. Tn addition, COPS independently sought the assistance of
     stmior-level business analysts to complete a Business Process Review (BPR) effort - begun in
     FY2005 and ongoing since that time - with the goal of ensuring continuous proccss
     improvement by analyzing current business processes~ identifying weaknesses, and taking
     proactive step~ to implement solutions. This effort has been intcgrul to COPS' 311CCC3:! in
     ensuring that proper internal controls are in place within the grants management process as
     requirl:d by Oft1ce of Management and Budget (OMB) guidelines, and the advanCe< and
     im prov~meuts which have been made will be both evident and especially \'nluabl~ us (he COPS
     Oilicc begins the rollout and management of funding to be provided through the American
     Recovery and Reinvestment Act of2009 (Recovery Act),

     Before addressing the technical advice report , it js llpproprii.\te for COPS to first provide
     information pertaining to the department-wide memorandum issued by the OIG in February 2009




                                                - 18 -
    Raymond J. Beaudet
    Technical Advice Report-re: "Improving the Office a/Community Oriented Policing Services'
       GranlAwarding, Monitoring, and Program Evaluation Processes "
    June 10, 2009
    Page 2

    entitled "Improving the Grant Management Process." This memorandum detailed numerous
    reCOtnfllel1ut!u pnH;liu:s and proc~dures to effectively minimiz~ opportunities for waste, fra uo.,
    and abuse in awarding and overseeing Recovery Act funding. The COPS Office ha!> made great
    progress in implementing these suggested practices and actions fur the COPS Hiring Recovery
    Program (CHRP). as described below. and continues to improve upon grant-making procedures
    for both CIIRP and other COPS grant solicitations.

        •   Gnmt Program Development I Performance - In accordance with recommended
            practices, ooth program objectives and measurable and obt(linable perfonnance measures
            have already been established for all COPS programs. The overaU program objectives
            focus on inereising the capacity oflaw enforcement agencies to implement conununity
            policing strutegics to enhance their capacity to prevent, solve, and control crime. CHRP­
            specific program objectives include the creation and preservation of sworn law
            enforcement officer johs. Grantee perfonnanee under CHRP will be measured through
            quarterly progress reporls (lsse:-:;sing the number of Ilew sworn offict::r jobs created and/or
            preserved, as well as through an annual survey that gauges the community policing
            capacity implementation rating of grantees.

       •    Grant Application, - A, ""ggcsted by tbc OrG, the COPS Ofticc maintains a highly
            developed Internet site through which applicants have been able to !liubmit questions (and
            recei'Ve answers via e-mail), n::view categories of frequently asked questions, listen to a
            I'podcast" pertai ning to CHR'P rum.liug. aruJ uuwn.1uetc.l program matt:= rials fur ust:= UUI:lJJ8,
            the on-line application process. COPS also maintaios an in-house call center fOJ" law
i           enforcement agencies to contact for assistance with both grant application and award
            maintenance questions; more complex grant matters are immediately transferred to Grant
J           Program Specialists for resolution. In fact, during the suticitution period for CHRP
            (~ch 16 - April 14,2009), COPS received and responded to more than 18,200 calls
            and 4,300 e-mails through the call center and website.

            [t should tiJsu be nuttAl tlwt fur the CIIRP solicitatiun, the COPS Office designed and
            implemented an on-line application system able not only to accept applications on-line (a
            mandatory practice under CHRP)j but also able to identify and appropriately block the
            submission of applications from ineligible agency types. During the solicitation period
            for CtIRP, the COPS Office received 7,272 applications through this system. All
            application infonnation submitted on-line was then automatically transferred into the
            COPS Management System (eMS) used for routine a~vard production and maintenance,
            thus eliminating the opportunity for data-entry errors to occur.

       •    Award Process As recommended by the OTG, COPS has already begun the process of
            sharing information on high-risk grantees with OJP to decrease the chances of future
            grant violations. COPS will etlso review each grantee's progress on the implementation
            of prior grants before awarding CIIRP funding; has advised applicants within CHRI'
            application materials of the necd to notify the DIG of any activi ty that would fall under




                                                   - 19 -
      Rllymond.T. Reaude.t
      Technical Advice Repurl re: ((Tmpru ving 'he Office a/Community Orierdcd Pu/icing Ser vice.s'
 I       Grant Awarding, Monltorln& alld Program Evaluation Prncesses "
      June 10, 2009
I     Page 3

             the False Claims Act or criminal or civil violation of laws pertaining to fraud. conJlict of
             interest, bribery, gratuity. or similar misconduct involving CHRP funding; and will
             provide infolmatio n on fraud awareness and the m is use of grant funds to awarded
.,i          ag~lIdl:!S. h i addilion. COPS cunLinues Lo parlicipa~ in num~rous ad huc m~c(ings wilh
             other federal agencies to discuss a variety of specific grant topics, including the
             avoidance of awarding duplicate funding for the :::ame ru rro~e) the needs ofthc law
             enforcement community, concerns pertaining to law cntbrcemcnt within Indian COWltry,
             and finan cial and payment system issues.

         o· Monitoring - OlP's Office of Audit, Assessmen~ and Management (OAAM), which
            maiutains uv.:rsight uf the grant monhoring process for COPS, OJP, and the Offic!! on
            Violence Agai nst Women (OVW). has begun working with the grant-making
            component>; to enhance and refine the risk assessment models and site visit monitoring
            procedures and practices already in placc. COPS staffwi ll continue to conduct on·sitc
            visits, pcrform office-based grant reviews, and review citizen complaints regarding grailt
            administration concerns, as well a."i monitor t he timely and appropri ate implementation of
            grallt projects thrnlJgll the care rul rc",ie w ufprugnl.IllIImlk: progress reports ;mc.l grantee
            extension and mudification rcquests. Furthennore, information gathered through both the
            gmntee quarterly progress reports described above and quarterl y financial status reports
            will satisfy all reporting requiremenls defined Vvithin the Recovery Act implementation
            guidance issued by OMB.

         •   Training f Communications As mentioned above, the COPS website provides a wea lth
             of infonnation for agencie~ in jhe ;Utit S of Clppli l.:<1tion pru cedllr~s (tnc.l <1w(tnl
             m,Untenance., including grant management resources (~ueh as grant owner's manuals and
             program fact sheets), tmining materials for grant administration, and contact information
             for additional assistance. Additional on-lint: reso urces specific"aJly related to funding to
             be provided under the Recovery Act include detailed information on nonsupplanting and
             retention requirements, tips fo r maintaining fully complete award fi les, and the
             instructional podcast 101' program applicant>;. The COPS Office also plans to otICI' an
             interactive on-line lraining module for CHRP grantees via an "eJ ,earn Center," which
             wi ll deliver both grants mamtgemcnt training and c.;omrnunily policing trainiug 10
             awaroed agencies.

      With regard to the six :::Ol'ecific issues mentioned in the OlO's "Improving the Office of
      Community Oriented Policing S ervic~s ' Grunt Awarding, Monitoring, and Program Evaluation
      Processes') techni cal advice report, thc COPS Office responds as fo llows:

      1 Using Contracts in P lace of Grants

      In the technical advice report, lhc OIa suggests that COPS consider developing guidance
      regarding which activities should be provided through the funding of contracts, rather t.rum
      through grnnts Or cooperative agreements. Please note that in selecting which funding




                                                  - 20 -
    Raymond J. Beaudet
    Technical Advice Report re: "Improving the Office o/Community Oriented Policing Services'
         Granl Awarding, Monitoring, and Program Evaluation Pmcessl!.'f"
    .Julle /0, 2009
    Page 4

    instrumem to use - procurement contract, grant, or cooperative agreement - COPS is required to
    adhere to thc govcrrunent-wide requiremeots of the Federal Grant and Cooperative Agreement
    Aet of! 977. The Aet sets forth a «benefit or use" tc!rt, in that if the principal purpose of the
    funded activity is for the direct benefit or use ofthe federal government, then a contract is the
1   appropriate legal instrument to use. [For example. if COPS were to provide training for its own
    ~tatl: then a contract wOll lc1 he the appropriate vt"hide.] However. if the purpost: of the fllodt:d
    activity is to support or stimulate a public purpose, then a grant or cooperative agreement may be
    used . If the decision to use a grant or cooperative agreement is made, then the di~tinguishing
    factor between the two is the degree of the funding agency's participation and involvement
I   during the performance of the funded activities,

!
I
    Therefore. with regard to awarding funds for technical a't'5istancc and train ing activities, ? grant
    or coopemtive ab'Teement is typically the legally appropriate funding instrument, with a
    cooperative agreernt:.llt allowing for COPS to have !:>ub::ilanti<ll involvement in the
I   assistanceitnlining content or agenda. A grant is typica1ly used when COPS funds are used to
    support another organization's conference or project whose 1arger purpose fits the COPS
    mission. Regardless of the funding instrument used for such technical ac;sistance and training
    awards, COPS always maint:ai.rls the cnpncity to exert both programmatic and financial oversight
    ovcr all award expenditures and project implementation.

    2 Identifving and Training High-Risk Orantees

    In the technical advice report, the OIG stated thal granlt:e compliance could be improved by
    ..... requiring high-risk grantee:; to demonstrate that they understand key grant-related
    responsibilities," As noted by the oro, COPS h.. alv,iays required applicants to submit
    assurances and certifications statements. through which agcncies certify to specific grant
    requirements in order to indicate lhciI knowledge of and intent to comply "vith them.

    In addition to the general govemment-widc cCltifications and assurances, the COPS Office
    t:nsu(ed that lhe COPS Hiring R~cover)' Program ap plication contained specific ccrtifications
    pertaining to the award requirements regarding the nonsupplanting offederal funds. retention of
    officer positions following the conc1u:~ ion of federal funding, and payment of only entry.level
    saluries and fringe benefits fo r officers. Furthcflllore: at the request of OIG Tnvestigations, all
    COPS applications require the signatories to certify that they arc authorized by the appropriate
    governing body to act on behalf of the agency, and that they understand and agree to abide by all
    grant tcmlS and conditions.

    3. Vettin(! Grant Applicants

    The COPS Office recognizes the importance of vetting poLential grant award recipients and has
    an established vetting policy that gathers and collectively considers relevant information cn
    potential awnrd recipients for thc pwposc of making informed funding dcci~ions . Our vetting
    process provides an opp ortunity for various COPS divisions and certain relevant U.S.




                                                - 21 -
     Raymond J Beaudet
     Technical Advice Report re: " Improving the OJJice nfCommunity Oriented Policing Services ,
        Grane Awarding. Monitoring. and Program Evaluation Processes "
     Ju,," 10, 2009
     Page 5

     Department of Justice (DOJ) components to identify entitie5l to which it may be inappropriate or
     inadvisable to award a gront.

     As part of the vetting process, a vetting list is generated of applicants e1igihle to receive fundi ng
     under a specific grant program based on a review of agency applications. As noted in the
     tecbnLcitl ttd vict'! r~port. this vetting list is distributed pre-announcement to relev.mt points of
.J   contact within the COPS Office and within the following DOJ components: C.S. Attorney's
     Offices; the Civil Rights Division; oro Investi gations; the OJP Office for Civil Rights; the
     Public Integrity Section; and the Criminal Division. In addition to a description of tho program
     being veLLed, the COPS Office provides guidance to these components in the memorandum that
     accompanies every vetting list instructing reviewers to provide reasons why it would be
     inadvisable or inappropriat.e t.o award an applic.,nt on1he list. This direction is pllIJXtsefully kept'
     broad, in order to give reviewers complete di scretion to at.lvist: COPS uf any rt:asun why fUllding
     sho uld be wilhheld from Wly agency.

     In the technical advice repon t the OIG suggests that COPS provide additional guidance to
     external components on what the COPS Office expects from their review of a vetting list.
     However. it should be noted that extcrnal components have not expresscd to COPS any
     confusion in this regard in the past. Every vetting list includes the contact information of a
     COPS staff member avai lable to answer questiom; and work closely with components on their
     re5ponS(;~, and who can conducl. fUrlher prubing uftht: infurmatiun provided, ifntxes::mry. In
     additiun, COPS continues to add information to our web~ite with up-tn-date and relevant
     materials concerning the vetting process, As a pan of this endeavor, COPS will be posting
     Frequently Asked Questions (FAQs) pertainin'g to vetting Oll our website. which will provide
     furthcr guidance on the vetting process to better inform components about this activity and the
     ramifications of their responses.

     Morcovcr, priorlo the distribution ofthe CTIR P vetti ng list, COPS also discussed with the
     Executive Office of U .S. Attorneys (EOUSA) tilt: best format for sending out the extensive list
     and receiving responses. As a result of this pre-vetting coordination with EOUSA, COPS
     created a «hidden" link on the COPS website which DO] component vettors could access to view
     applicant agencit:s sortt:d by state, R..'1d which greatly helped facilitate their review.

     It should also be noted that the COl'S Office and OJP have begun Lhe pracLice of exchanging
     information on high-risk grantccs to decrease the chancc~ of futurc grant violations.

     4. Enhancing Traininp PmerA JII S for Onmtees

     The COPS Office agrees with the OIG that the use ofthe Internet is an efficient and cost­
     effective means for implementing grantee training. As noted previously, in preparation fo r the
     COPS Hiring Recovery Program, COPS has awarded funding to establish a CHRP "eLeam
     Center" to deliver both grants management training and COJDlnunit)' policing training to grantce
     agencies. At their 0""'11 convenience and at far less cost than instructor-led train in~ CIlRP




                                                   - 22 -
     Rapllolld J Beauder
     Technical Advic;e Report re : "Tmproving lhe Office ofCommlJnily Oriented Pnlicing Services           J


        Grant Awarding, Monitoring, alld Program Evaluation Processe.\',"
     June 10, 2009
     Page 6

     grantees will have access to infot'mation and resources on-line that will help them effectively
     administer their grant and cmploy 30Wld community policing practices.

     Aner Ihe initial implementation of this C1IRP ~based 1rafuing. COPS will evaluate the success of
     the cLcarn Center to a')..'~ess the potential for ~nhasll':w Ut:vduplm:IJl uf tht: system, incl uding it<i
     use for either mandatory training or spccific training tailored to high-risk grantees.

     5. Allowing Remote Access to Gumt D.Q&~entation

     The technical advice report states that, "Given the duties ofOAAM and tbe [Office ofthc Chief
     Pinancial Officer] OCFO relative to COPS grantee monitoring, we believe CO PS should
     cnnsider making it possible for selected staff members from etlchofthese offices to remotely
     access it~ system to murt: ~asily ubtain grdIltel! information." I1owe\,l~r, bt:cause the COPS
.,   Management System (eMS) utilized fo r award administration js not a web-based system) access
,t   to eMS is only available within thc physical location of the COPS Office or via remote acccss
     through the Justice Secure Remote Access (lSRA) connection using a COPS-issued laptop
     computer. However, M y and all grantee informution 'within the system can be provided as
 I   cll.'~tomizcd reports to OAAM and OCFO upon request by either office, and such requests are
 !   processed on a routine and timely basis.

     6. Mt!a::;uring Ihl! Pt:rfonmmce oecops Programs

     As mentioned previou.c;ly, three performance measures specific to the Recovery Act have been
     created by the COPS Officc and approved by OMB. These measures - the average community
     policing capncity of COPS Hiring Reeovcry Program grantees, the number of jobs created. and
     thc number of jobs preserved - ",'ill be measured through quarterly progress reports assessing the
     number of new sworn officer jobs ereated and/or preserved, a.... well a. . throueh an annual survey
     that gauges the community policing capacity implementation rating of grantees.

     While   tl,. average community policing capacity of grantees has been aggregated to date, COPS
     is working toward breaking this measure out for each individual grant program for FY2009,
     including specific breakouts for the Tcchnology Program and Methamphetamine Initiative. In
     addition, while CO PS does not report grantee satisfaction rntings in om performance budget
     submissions. we will continue to Q-dck thi ~ important measure internally and make program
     adjustment" 8.... appropriate.


     In conclusion, Lhe COPS Office has made great progress in improving our grant management
     processes and award oversight, which will be especially important as we administer our
     increased funding under the Recovery Act, and we believe that these advances w ill greatly
     reduce the likelihood offuturc 01U findings and recommendations in these areas. The COPS
     OUi"" would like to thank the oro for the opportunity to review and respond to the dran
     technical advice report. If you have any questions or would like additional information




                                                    - 23 -
     Raymond J. Beaudel
     Technical Advice Report re: "Improving the Office o/CQmmzmity Oden/ed Policing Services       J


        Grallt A.warding, lv/oni/oring, and Program Evaluation Proces.'ics "
     JUlie 10, 2009
     Page 7

i    regarding any of the topics disc ussed in this memorandum, please conLact Bob Phillips, Deputy
i    Director for Operations, at (202) 6 1 6~2876, or Cynthia Bowie, Assistant Director for tn. Audit
     Liuison Division, at (202) 616·3645.

I,   cc: Richard P. Thies
         Director, OOJ/JM D Audit Liaison Office

         Thomas O. Puerzer
         Regional Audit Manager, OIG Philadelphia Regional Audit Office




I
I
I
I

I
j
I
I




                                                   - 24 -
                                                                Appendix III


         Office of the Inspector General Analysis of the 

   Community Oriented Policing Services’ Response to the Report 


      The OIG provided a draft of this report to COPS on May 28, 2009, for
review and comment. COPS provided a response to the draft on June 10,
2009, and this response is included as Appendix II of this report. We
appreciate COPS’ response, and because this report contains no audit
findings or recommendations, no further action is required by COPS.

      Before addressing the issues in this report, COPS outlined actions
being taken in response to the OIG’s “Improving the Grant Management
Process” document issued in February 2009. We recognize the efforts made
by COPS and will continue to monitor its implementation of these actions in
future reviews of the COPS Hiring Recovery Program (CHRP).

Using Contracts in Place of Grants

       In its response, COPS stated that for technical assistance and training
activities a grant or cooperative agreement is typically the legally
appropriate funding instrument. While we agree that grants and cooperative
agreements are frequently the appropriate funding instrument for technical
assistance and training activities, we are also aware that other offices within
the Department use contracts to provide some of these activities and that in
such instances a greater level of program oversight can be achieved.

       We therefore continue to encourage COPS to develop guidance that
will identify activities that are best suited to funding through contracts, as
we believe using contracts instead of grants or cooperative agreements may
help to ensure activities are provided effectively and efficiently.

Identifying and Training High-Risk Grantees

       Our technical advice report stated that COPS could improve its efforts
to identify and train high-risk grantees. In its response, COPS confirmed the
use of assurances and certification statements as we described in our report.
However, based on our audit experience, we have found that such
statements are often ignored or signers do not fully understand the
requirements established when signing the assurances and certifications.
For that reason, we believe COPS should consider additional steps to
improve its processes for identifying high-risk grantees and then providing
additional training to such grantees to ensure that the terms and conditions
of grants will be met. Specifically, we believe COPS would benefit from
collecting additional information on how grantees intend to manage grant
funds. This information can then be used to more thoroughly assess the risk


                                    - 25 -
level of providing grant funds to a recipient. When risks are high, COPS can
provide additional training and guidance to ensure that the terms and
conditions of grants provided are being met.

Vetting Grant Applicants

      In response to our concerns relating to vetting grant applicants, COPS
outlined its current procedures and new actions taken since this review and
our document “Improving the Grant Management Process” was issued earlier
this year. These new steps include providing vetting components with more
information and exchanging information on high-risk grantees with OJP. We
encourage COPS and OJP to seek more coordination on vetting activities.

Enhancing Training Programs for Grantees

      In response to our suggestion to enhance training for grantees, COPS
described the “eLearn” Center for CHRP grantees. We support this program
and encourage COPS to enhance training for all of its grantees. We also
encourage COPS to consider mandatory and recurring grantee training to
ensure that all recipients are aware of the financial and programmatic
requirements when utilizing grant funds.

Allowing Remote Access to Grant Documentation

      In response to the issue concerning access to grant documentation,
COPS stated that off-site access to the COPS Management System is only
possible by using a COPS-issued laptop and a the Justice Secure Remote
Access connection. COPS also stated that it responds to OJP’s requests for
information by providing customized reports in a timely manner. While we
do not dispute this response, based on our own experience and our need to
access grant information from various offices within the Department, we
believe strongly that oversight agencies should have instant and complete
access to grant information. For this reason, we continue to encourage
COPS to consider providing its OJP partners with the necessary access the
COPS Management System remotely.

Measuring the Performance of COPS Programs

      In response to the issue of measuring the performance of COPS
programs, COPS described the new measures for CHRP and the fact that the
community policing capacity measure for certain programs is being broken
out for FY 2009. While we support these measures, we continue to believe
COPS should consider developing measures for grant programs that go



                                   - 26 -
beyond community policing capacity and directly address the results
achieved from grant funds.




                                   - 27 -
